           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    GENERAL CONTROLS REVIEW
      OF THE FLORIDA DIVISION
   OF DISABILITY DETERMINATIONS
    CLAIMS PROCESSING SYSTEM

  January 2007       A-14-06-16023




 AUDIT REPORT




                 .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      January 10, 2007                                                            Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   General Controls Review of the Florida Division of Disability Determinations Claims
           Processing System (A-14-06-16023)


           OBJECTIVE
           Our objective was to assess the general controls environment of the Florida Division of
           Disability Determinations (FL-DDD) claims processing system.

           BACKGROUND
           The Disability Insurance program provides benefits to wage earners and their families in
           the event the wage earner becomes disabled. The Supplemental Security Income
           program is a Federal income supplement program designed to help aged, blind, and/or
           disabled people who have little or no income. The Social Security Administration (SSA)
           implements the policies governing the development of disability claims under each
           program. Disability determinations under both programs are performed by an agency in
           each State or other responsible jurisdiction according to Federal regulations. 1 In
           carrying out its obligations, each responsible agency determines claimants’ disabilities
           and ensures there is adequate evidence available to support its determinations.

           Disability Determination Services’ (DDS) personnel have access to extremely valuable
           and sensitive SSA data, such as Social Security numbers (SSN), medical information,
           and related disability claims data. Sensitive SSA data, 2 processed and stored by each
           DDS, should be protected from inappropriate or unauthorized access, use, and
           disclosure. DDSs have a responsibility to safeguard sensitive SSA data entrusted to
           them and to safeguard SSA’s and DDS’ systems accessed and used to process that
           data.


           1
            20 C.F.R., part 404, subpart Q, and part 416, subpart J.
           2
            Sensitive data downloaded from SSA to the DDS claims processing system include claimant SSN,
           name, address, phone number and date of birth.
Page 2 - The Commissioner

DDSs use a variety of hardware and software platforms to store, process, and protect
sensitive SSA data. FL-DDD disability claims are processed on an IBM iSeries
computer system (IBM computer) using I. Levy & Associates (iLevy), Inc. software.

The DDSs are expected to provide a control environment that meets SSA’s minimum
security requirements. SSA’s security requirements for DDSs are found in its Program
Operations Manual System (POMS). 3 The POMS provides SSA privacy and security
program standards and guidelines, which apply to the DDS environment. SSA has also
distributed Risk Models 4 to the DDSs to establish security settings for the various
hardware platforms to help ensure the security of SSA data stored and processed on
the DDS enterprise.

The FL-DDD maintains operations in six locations—Jacksonville, Miami, Orlando,
Pensacola, Tallahassee and Tampa—and is a component of Florida’s Department of
Health. The IBM computer used by the FL-DDD to process claims is physically located
at the Tallahassee location in the Ashley Building. Therefore, our physical security
review was limited to the Ashley Building.

RESULTS OF REVIEW
We reviewed the general controls environment of the FL-DDD claims processing
system and found it was generally in compliance with SSA standards. We found five
physical security and four systems security-related issues that needed to be addressed
to help ensure that SSA data stored and processed at the FL-DDD is secure. However,
these issues do not rise to the level of impacting our overall conclusion.

We held an exit conference with the FL-DDD management as well as staff from the
Atlanta Regional Office and SSA Headquarters to explain our findings and
recommendations. The FL-DDD subsequently has addressed most of our findings.
Although we did not independently review the newly implemented recommendations,
we commend the FL-DDD on its efforts to help improve security.

PHYSICAL SECURITY ISSUES

Terminated and Transferred Employees Remained in the Physical Security
Access Control System

We found six FL-DDD employees who had either been terminated or transferred during
Fiscal Year (FY) 2006; however, active accounts for these employees still remained in
the physical security access control system for the Ashley Building. Employees gain
entry to the Ashley Building and interior passageways with an electronic key that is
programmed with the employees’ access requirements based upon their job duties. If
3
    POMS, Section DI 39566, DDS Privacy and Security.
4
 The Risk Model that was followed by the FL-DDD at the time of our review was the iSeries Security
Settings and Control Model (commonly known as the iSeries Risk Model), October 2005.
Page 3 - The Commissioner

an unauthorized individual has possession of one of these electronic keys and the
account is still active in the physical security access control system, then that individual
will have access to the building and interior passageways assigned to that key. SSA
policy 5 states that office keys should be restricted to those individuals who are required
to have them.

The physical security officer is responsible for administering physical access at the
Ashley Building. However, there was no formal process to notify the physical security
officer when an employee is terminated or transfers to another FL-DDD location.
Systems access is removed via an automated request initiated by the employee’s
manager and is routed to the FL-DDD’s systems Help Desk. The FL-DDD also uses an
employee exit checklist whenever employees separate from or transfer to another
location within the FL-DDD. This checklist details the items that the manager must
collect prior to the employee’s final day of work, such as access cards, building keys,
and parking passes.

We recommended during our site visit that the automated Help Desk ticket and exit
checklist processes be revised to incorporate the physical security officer so physical
access will be removed for terminations and transfers to other FL-DDD locations. The
FL-DDD stated that several processes have been implemented since our site visit to
ensure the physical security officer is notified when an employee is being terminated or
transferred. These processes are:

      •   The supervisor of an employee who is terminating or transferring to another
          location must notify the Ashley Building’s physical security officer via email with
          the employee’s name, access code number, and level of access.
      •   The physical security officer receives a weekly listing from the Human Resources
          (HR) Department of all employees who have separated from the FL-DDD.
      •   The employee exit checklist has been amended to include the physical security
          officer for the receipt of access cards, building keys, and parking passes.

The FL-DDD stated it will explore the feasibility of an automated procedure to notify the
physical security officer of employee terminations and transfers as we had
recommended. We encourage the FL-DDD to pursue implementing this automated
process.

Employee Exit Checklists Were Not on File

Employee exit checklists for 27 of 75 terminated employees and 12 of 14 employees
who transferred to other locations within the FL-DDD were not on file with the FL-DDD
HR Department. Of the 50 exit checklists that were on file, 33 were not fully completed.
Incomplete or missing checklists do not ensure that all FL-DDD property issued to
terminated or transferred employees has been returned prior to their departure. SSA

5
    POMS, Section DI 39566.010 B.6.a., DDS Physical Security.
Page 4 - The Commissioner

policy 6 states that personnel should turn in identification cards and all Agency property
and that a copy of the completed checklist be maintained in the employee’s personnel
folder.

The checklist used by the FL-DDD directs the local offices to ensure that all fields on the
form are addressed and that the completed checklist must be submitted to HR. We
recommended at the exit conference that the FL-DDD issue a reminder to its field
supervisors to ensure that all fields in the checklists are addressed and that completed
exit checklists are submitted to the FL-DDD HR Department.

The FL-DDD stated that a process has now been implemented to ensure that exit
checklists are completed and submitted to HR. Upon notification to HR that an
employee is separating from or transferring to another location within the FL-DDD, the
supervisor is sent the checklist and instructed to complete and submit the checklist to
HR. The HR Department now monitors this process to ensure that checklists are
completed and submitted by the supervisors. We commend the FL-DDD for its prompt
action to correct this issue.

Excessive Personnel Had Access to the Computer Room

We found 5 out of the 31 employees who had been granted unescorted access to the
Ashley Building’s computer room had job duties not requiring them to have this access.
These employees included administrative personnel, accounting personnel, and non-
systems managers. This unescorted access would allow an employee, whether
maliciously or accidentally, to damage FL-DDD equipment and data without FL-DDD
systems or management staff’s knowledge. SSA’s POMS 7 states that access to the
computer room should be restricted by management or authorized personnel. The
Government Accountability Office’s (GAO) Federal Information Systems Controls Audit
Manual (FISCAM)8 also recommends that access to an entity’s computer room facilities
and equipment should be limited to employees whose job duties and responsibilities
require this access.

The physical security access codes that provide access to the Ashley Building’s
systems area office space also provides unescorted access to the computer room
where the IBM computer is housed. While it may be necessary for some non-systems
employees to have access to the systems area office space to meet with systems staff
or to conduct other business, these employees should not have unescorted access to
the computer room. We recommended at the exit conference the FL-DDD set up a
separate access code for the computer room in its physical security access control
system and that the systems area access of these employees be removed until
separate access codes are in place for the systems office area and the computer room.

6
    POMS, Section DI 39566.010 B.6.h., DDS Physical Security.
7
    POMS, Section DI 39566.010 B.2.l., DDS Physical Security.
8
    GAO FISCAM, January 1999, pages 46-47.
Page 5 - The Commissioner

The FL-DDD agreed with our recommendation. A separate access code has been
implemented for non-systems employees that provides access to the systems office
space but does not allow unescorted access to the computer room. Only employees
whose job duties require unescorted access to the computer room have access now.
We commend the FL-DDD for its prompt action to correct this issue.

Computer Room Housing the IBM Computer Did Not Have an Environmental
Alarm System

The computer room in the Ashley Building, where the IBM computer is housed, did not
have an environmental alarm system. Environmental controls can diminish the losses
from some interruptions, such as fires or prevent incidents by detecting potential
problems early, such as water leaks or smoke, so that they can be remedied. 9 SSA
policy 10 states that an environmental controls alarm system should be installed in DDS
computer rooms.

The FL-DDD stated that it has determined its computer room environmental alarm
needs and has requested funding from SSA. We recommend the FL-DDD continue to
pursue the installation of an environmental control alarm system to prevent or mitigate
damage within the computer room and interruptions in service.

Physical Security Weaknesses That Were Related to Door Construction

There were two doors with rising hinge pins on the ground level of the Ashley Building
that lead from the public lobby (between 6 a.m. and 7 p.m.) into FL-DDD office space.
Rising hinge pins can be tampered with and the door removed off of its frame. Also, the
door leading into the systems office area did not have a peephole. Individuals ring a
doorbell and verbally identify themselves to gain access to the systems office area.

SSA policy 11 states that perimeter doors should have non-rising hinge pins to prevent
tampering with the hinges and should have peepholes if visibility is restricted. We
recommended at the exit conference the FL-DDD install non-rising hinge pins or secure
the existing hinges in a manner as to prevent the doors from being removed from their
hinges. We also recommended a peephole be installed in the systems area office
entrance door, so individuals without access to the area can be visually identified before
being allowed to enter.

The FL-DDD agreed with our recommendations and stated that non-rising hinge pins
have been installed on the two perimeter doors leading into its office space. The
FL-DDD also stated a peephole has been installed in the systems area office entrance
door. We commend the FL-DDD for its prompt action to correct these issues.

9
    GAO FISCAM, January 1999, page 128.
10
     POMS, Section DI 39566.010 B.2.m., DDS Physical Security.
11
     POMS, Section DI 39566.010 B.1.d. and 39566.010 B.1.e., DDS Physical Security.
Page 6 - The Commissioner

SYSTEMS SECURITY ISSUES

Terminated Employees Still Had Enabled IBM Computer or Local Area Network
Profiles

Two employees who were terminated during the current FY still had enabled IBM
computer profiles at the time of our fieldwork. Also, another terminated employee had
an enabled Windows local area network profile. Individuals whose profiles are enabled
have the ability to sign-on to the system.

SSA provides the DDSs with the IBM computer Settings and Controls model (Risk
Model) as a template for installation and management of the IBM computer platform.
This document lists the required settings along with a risk description and underlying
policy. The Risk Model states that accounts should be disabled immediately upon an
employee’s separation from duty. 12

The process for disabling systems access for terminated employees at the FL-DDD is
initiated by an automated Help Desk ticket request submitted by the employee’s
manager. If a Help Desk ticket request is not submitted, the terminated employee’s
account will remain enabled. Since our site visit, the FL-DDD issued a reminder to its
area managers and bureau chiefs to follow the proper procedures for disabling
terminated employees’ systems access. We commend the FL-DDD for its prompt
action to correct this issue.

Accounts Inactive for Over 30 Days Were Not Disabled

There were 24 user profiles not disabled after more than 30 days since their last date of
access on the IBM computer. Also, there were six user profiles that had never signed
onto the IBM computer for more than 30 days since the creation of the profiles and
these profiles were not disabled. Inactive profiles increase the risk of inappropriate
activity by unauthorized users. The risk of inappropriate activity is greater for profiles
that have never signed onto the IBM computer because the FL-DDD uses a generic
naming convention for its IBM computer profiles and a default password for initial
sign-on.

SSA policy 13 states that accounts should be reviewed on a periodic basis and disabled
after 30 days of inactivity. The FL-DDD agreed with our finding and stated a system job
now runs weekly and disables profiles that have not signed onto the IBM computer in
over 30 days or have not signed-on within 30 days of creation of the profile. We
commend the FL-DDD on its prompt action to correct this issue.




12
     SSA’s iSeries Security Settings and Control Model, October 2005, page 13.
13
     SSA’s iSeries Security Settings and Control Model, October 2005, page 13.
Page 7 - The Commissioner

IBM-Supplied Profile Not Configured in Accordance With Risk Model

We found an IBM-supplied profile on the IBM computer that was not configured in
accordance with the SSA Risk Model. The IBM-supplied profile “QPGMR:”

       •   was used as a group profile for the FL-DDD programmers and batch users,
       •   was allowed to sign-on to the IBM computer, and
       •   had special authorities14 assigned to it.

The SSA Risk Model 15 states that the QPGMR profile should not be used as a group
profile and should not be allowed to sign onto the IBM computer. This ensures that
individuals cannot sign onto the system under the group profile and perform activity that
would not be attributable to those persons if they had signed onto the system under
their individual user profile. The FL-DDD agreed with our finding and stated that the
QPGMR profile can no longer sign onto the IBM computer. The FL-DDD is also
coordinating with IBM and iLevy to develop a solution to no longer use QPGMR as a
group profile.

The Risk Model16 also states that the QPGMR should not have any special authorities
assigned to it. However, the QPGMR profile is shipped from IBM with special
authorities and IBM’s Security Reference Manual for the IBM computer 17 cautions that
removing special authorities from IBM-supplied profiles may cause system functions to
fail. The FL-DDD has expressed concern that removing these special authorities may
impact its production environment.

We recommend the FL-DDD continue to develop a solution enabling it to stop using the
QPGMR profile as a group profile for the FL-DDD programmers and batch users. We
also recommend the FL-DDD work with SSA to determine whether the special
authorities can be removed from the QPGMR profile or whether the Risk Model requires
revision.




14
     Special authorities are used to specify the types of actions a user can perform on system resources.
15
     SSA’s iSeries Security Settings and Control Model, October 2005, page 9.
16
     Id.
17
  IBM, iSeries Security Reference Version 5 (SC41-5302-08), August 2005, page 271. The Security
Reference Manual provides information about planning, setting up, managing, and auditing security on
the iSeries system.
Page 8 - The Commissioner

Restricted-Use Profiles Can Sign Onto the System

Six restricted-use profiles, which are vendor profiles and application group profiles, can
sign onto the system in violation of SSA policy. SSA’s Risk Model18 states that these
restricted-use profiles should not have the authority to sign onto the system. Profiles
that are shared by groups or have widely known access rights and policies are subject
to abuse and do not allow for accountability to a specific individual’s actions.

We discussed this issue with the FL-DDD management at the exit conference
conducted with staff from the Atlanta Regional Office and SSA Headquarters. These
restricted-use profiles pertain to functions associated with the FL-DDD’s iLevy software.
Per consultations with iLevy, and by experimentation performed by the FL-DDD in its
test environment, a determination has been reached that these restricted-use profiles
must have the ability to sign onto the IBM computer. Restricting this ability would cause
system functions to fail and impact production. The FL-DDD has shared these
concerns with SSA and has decided not to change the restricted-use profile settings at
this time.

The FL-DDD has worked with SSA and the Office of the Inspector General (OIG) to
implement alternative security settings for these profiles. These security settings would
offer an acceptable compensating control for being unable to prevent these profiles from
signing on to the IBM computer as currently mandated by the SSA Risk Model. We
recommend the FL-DDD continue to work with SSA to determine whether the Risk
Model should be revised to reflect the production needs of the DDSs.

CONCLUSION AND RECOMMENDATIONS
We found the general controls environment for the claims processing system at the
FL-DDD to be generally effective and in compliance with SSA policy. However, we
identified physical and systems security areas where the FL-DDD could improve upon
its protection of sensitive SSA data. We recommend the FL-DDD:

1. Pursue implementing an automated process to notify the physical security officer of
   employee terminations and transfers.

2. Continue to pursue the installation of an environmental control alarm system to
   prevent or mitigate damage within the computer room and interruptions in service.

3. Continue to develop a solution that enables termination of the QPGMR profile as a
   group profile for its programmers and batch users.




18
     SSA’s iSeries Security Settings and Control Model, October 2005, page 14.
Page 9 - The Commissioner

4. Continue to work with SSA to determine whether the special authorities can be
   removed from the QPGMR profile or whether the Risk Model requires revision.

5. Continue to work with SSA to determine whether the Risk Model needs revision to
   reflect the production needs of the DDSs.

AGENCY COMMENTS AND OIG RESPONSE
The Regional Commissioner essentially concurred with all five recommendations.
Initially, the Regional Commissioner questioned the costs associated with
recommendation 2 (see Appendix C). After further clarifying our position, the Regional
Commissioner revised the comments and agreed to our second recommendation (see
Appendix D).

For recommendation 4, the OIG asked that the Regional Commissioner to either modify
the QPGMR profile or revise the Risk Model. The Regional Commissioner agreed to
revise the Risk Model.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Agency Comments - Revised
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
C.F.R.       Code of Federal Regulations
DDS          Disability Determination Services
FISCAM       Federal Information System Controls Audit Manual
FL-DDD       Florida Division of Disability Determinations
FY           Fiscal Year
GAO          Government Accountability Office
HR           Human Resources
iLevy        I. Levy & Associates, Inc.
OIG          Office of the Inspector General
POMS         Program Operations Manual System
Risk Model   iSeries Settings and Controls Model
SSA          Social Security Administration
SSN          Social Security Number
                                                                             Appendix B

Scope and Methodology
Our objective was to assess the general controls environment of the Florida Division of
Disability Determinations (FL-DDD) claims processing system.

According to the Government Accountability Office (GAO), 1 general controls apply to all
information systems—mainframe, minicomputer, network, and end-user environments.
These controls include (1) entity-wide security program planning, management, [and]
control over data center operations, (2) system software acquisition and maintenance,
(3) access security, and (4) application system development and maintenance.

Our audit of the FL-DDD general controls consisted of (1) entity-wide security
program planning, management and control over data center operations to
include service continuity and environmental controls and (2) access security to
include physical and system security. We did not review the FL-DDD system
software acquisition and maintenance or application system development and
maintenance.

To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) security requirements sent to
    the Disability Determination Services, which included the Program Operations
    Manual System and the IBM iSeries computer system Security Settings and Control
    Model.
•   Interviewed pertinent FL-DDD managers and personnel.
•   Reviewed applicable guidance pertaining to the evaluation of general controls over
    computer-processed data from agency program information systems.
•   Reviewed prior Office of the Inspector General reports and the
    PricewaterhouseCoopers LLP Fiscal Year 2005 Management Letter containing
    information relative to our objective.
•   Obtained an understanding of the FL-DDD’s general controls environment for its
    claims processing system and tested certain controls to determine whether they
    were effective and operating as intended.

We performed our field work at SSA Headquarters and at the FL-DDD Administrative
Office in Tallahassee, Florida between March and May 2006. We conducted our review
in accordance with generally accepted government auditing standards.


1
 GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999,
page 16.
                  Appendix C

Agency Comments
                                  SOCIAL SECURITY
                                                     Refer To: K. Killam 2-5727


MEMORANDUM

Date:      November 28, 2006

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: General Controls Review of the Florida Division of Disability
         Determinations Claims Processing System (A-14-06-16023)

Thank you for the opportunity to comment on the validity of the facts and
reasonableness of the recommendations presented in your draft audit report of the
Florida Division of Disability Determinations (FL DDD). We believe that the OIG Audit,
regarding the general controls environment of the FL DDD claims processing system,
was detailed and thorough.

Our response to the five recommendations is as follows:

1. Recommendation: Pursue implementing an automated process to notify the
   physical security officer of employee terminations and transfers.

      We agree with this recommendation. The OIG auditors found five physical security
      and four systems security-related issues that needed to be addressed within the FL
      DDD. The auditors recommended during their site visit that the automated Help
      Desk ticket and exit checklist processes be revised to incorporate the physical
      security officer. On April 21, 2006, the FL DDD implemented a change in procedure.
      The security liaisons for area offices are now notifying the Physical Security
      Coordinator of the name(s) and key number(s) of employees when they leave the FL
      DDD. The Physical Security Coordinator then updates the Master List of key
      holders. Therefore, physical access will be removed for all terminations and
      transfers to other FL DDD locations. Issue resolved and no further action is
      necessary.

2. Recommendation: Continue to pursue the installation of an environmental
   control alarm system to prevent or mitigate damage within the computer room
   and interruptions in service.




                                           C-1
  We do not agree with this recommendation. The auditors site our POMS DI
  39566.010.B2 as the policy requirement for the installation of environmental
  controls in the computer rooms. The POMS policy states that this is a
  discretionary standard. The reference reads as follows: “We encourage DDS
  management to use the discretionary procedures to ensure ongoing security
  of data, personnel, and property. The DDS should consider, based on a risk
  assessment of their facilities (location, crime rate, current security level, etc.),
  whether some or all of the discretionary measures should be included in their
  security program. If a DDS is unable to meet a guideline for physical security,
  a risk assessment plan should be prepared.” Based on the DDSs assessment
  of their security needs, SSA evaluates the value of funding these types of
  requests. SSA has determined that the cost of fire suppression systems far
  exceeds the value of the equipment and will not be funding the installation of
  environmental controls in the Florida DDD. Therefore, issue resolved and no
  further action is necessary.

3. Recommendation: Continue to develop a solution that enables termination of
   the QPGMR profile as a group profile for its programmers and batch users.

   We agree with this recommendation. The SSA Risk Model states that the QPGMR
   profile should not be used as a group profile and should not be allowed to sign onto
   IBM computers. The FL DDD agreed that individuals should not be able to sign onto
   the system under the group profile and perform activity that is not appropriate.
   Accordingly, the DDD began working with the iSeries Focus Group and SSA
   personnel in Central Office to resolve this issue with QPGMR. As a result, the
   QPGMR profile is disabled and initial program set to None for the FL DDD iSeries.
   Therefore, users cannot log on to the FL DDS iSeries using QPGMR. Issue
   resolved and no further action is necessary.

4. Recommendation: Continue to work with SSA to determine whether the
   special authorities can be removed from the QPGMR profile or whether the
   Risk Model requires revision.

   We do not agree with the recommendation of removing the special authorities from
   the QPGMR profile, but believe that the Risk Model should be revised. The Risk
   Model states that the QPGMR should not have any special authorities assigned to it.
   The FL DDD was concerned, however, that removing special authorities might
   impact their production environment. Since the initial findings by the auditors, SSA
   personnel in Central Office have revised the Risk Model. The Risk Model now
   indicates that QPGMR is shipped by IBM with special authorities and that they
   should not inherently indicate a security issue. Therefore, all DDSs (including the FL
   DDD) can continue to utilize the QPGMR profile as needed by the application
   vendors (i.e. Levy, Versa and Midas), but should not add any additional special
   authorities to the QPGMR profile that are not already present. The FL DDD and
   SSA will continue to take care that QPGMR profile is utilized correctly.




                                            C-2
5. Continue to work with SSA to determine whether the Risk Model needs
   revision to reflect the production needs of the FL DDD.

   We agree with this recommendation. Auditors found six restricted-use profiles,
   which are vendor profiles and application group profiles that could sign onto the
   system in violation SSA policy. SSA’s Risk Model states that these restricted-use
   profiles should not have the authority to sign onto the system. Profiles that are
   shared by groups or have widely known access rights and policies are subject to
   abuse and do not allow for accountability to a specific individual’s actions. Therefore,
   FL DDD has reminded area managers and bureau chiefs to follow procedures for
   disabling employee’s systems access (as outlined above). The FL DDD and SSA
   will continue to monitor these procedures to ensure compliance by area manages
   and bureau chiefs. The Quarterly Security review of all systems access accounts
   will ensure any deficiency is found and corrected.

Your staff may direct questions to Josie Irwin at (404) 562-1407 or Karen Killam at (404)
562-5727.



                        Paul D. Barnes

cc: James McHargue
    Paul Buehler
    Josie Irwin




                                           C-3
                            Appendix D

Agency Comments - Revised
                                SOCIAL SECURITY
                                                     Refer To: K. Killam 2-5727

MEMORANDUM

Date:    December 19, 2006

To:      Inspector General

From:   Regional Commissioner
        Atlanta

Subject: General Controls Review of the Florida Division of
         Disability Determinations Claims Processing System
         (A-14-06-16023) – Revision

We responded to the above draft audit report on November 28, 2006. Our response to
the 2nd recommendation regarding the installation of an environmental control alarm
system indicated that we did not agree with the recommendation. Our response dealt
with the installation of an environmental suppression system, which we believed was
not cost effective. However, in the interim, we realized that OIG was recommending the
installation of an environmental control system and not a suppression system.

Our updated response is as follows:

2. Recommendation: Continue to pursue the installation of an environmental
   control alarm system to prevent or mitigate damage within the computer room
   and interruptions in service.

We agree with this recommendation. We are requesting funding for the installation of
an environmental control alarm system to prevent or mitigate damage within the
computer room. The Regional Office will work with the Florida DDS to ensure that this
system is purchased and installed this fiscal year. Issue is on-going until the control
alarm system is installed.

Your staff may direct questions to Josie Irwin at (404) 562-1407 or Karen Killam at (404)
562-5727.

                                         Paul D. Barnes

cc: James McHargue
    Paul Buehler
    Josie Irwin
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kitt Winter, Director, Data Analysis and Technical Audits Division, (410) 965-9702

   Albert Darago, Audit Manager, Application Controls Branch (410) 965-9710

Acknowledgments
In addition to those named above:

   Alan Lang, Senior Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-06-16023.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
